No. 20-1048
IN THE SUPREME COURT OF THE UNITED STATES
_________________
STEVENSON RUBEN ONEAL MOORE, PETITIONER
v.
MERRICK B. GARLAND, ATTORNEY GENERAL
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE RESPONDENT IN OPPOSITION, via e-mail and first-class mail,
postage prepaid, this 13TH day of April, 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 4484 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct.
Executed on April 13, 2021.

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
April 13, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in addition
to mailing your brief via first-class mail, we would appreciate a fax or email copy of your brief.
If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory Case
Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.

20-1048
MOORE, STEVENSON RUBEN ONEAL
ROBERT M. WILKINSON, ACTING ATTORNEY
GENERAL

RICHARD W. MARK
GIBSON, DUNN & CRUTCHER LLP
200 PARK AVE.
NEW YORK, NY 10166
212-351-4000
RMARK@GIBSONDUNN.COM

